<html>
<title> - PRESIDENTIAL RECORDS IN THE NEW MILLENNIUM: UPDATING THE PRESIDENTIAL RECORDS ACT AND OTHER FEDERAL RECORDKEEPING STATUTES TO IMPROVE ELECTRONIC RECORDS PRESERVATION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





 PRESIDENTIAL RECORDS IN THE NEW MILLENNIUM: UPDATING THE PRESIDENTIAL 
    RECORDS ACT AND OTHER FEDERAL RECORDKEEPING STATUTES TO IMPROVE 
                    ELECTRONIC RECORDS PRESERVATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2011

                               __________

                           Serial No. 112-45

                               __________

Printed for the use of the Committee on Oversight and Government Reform





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
70-518 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director








                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 3, 2011......................................     1
Statement of:
    Ferriero, David S., Archivist of the United States, National 
      Archives and Records Administration, accompanied by Gary M. 
      Stern, General Counsel, National Archives and Records 
      Administration; and Brook Colangelo, chief information 
      officer, Office of Administration, Executive Office of the 
      President..................................................     9
        Colangelo, Brook.........................................    20
        Ferriero, David S........................................     9
Letters, statements, etc., submitted for the record by:
    Colangelo, Brook, chief information officer, Office of 
      Administration, Executive Office of the President, prepared 
      statement of...............................................    22
    Connolly, Hon. Gerald E., a Representative in Congress from 
      the State of Virginia, prepared statement of...............    55
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland:
        Later dated May 2, 2011..................................    38
        Prepared statement of....................................     7
    Ferriero, David S., Archivist of the United States, National 
      Archives and Records Administration, prepared statement of.    12
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona, prepared statement of....................    64
    Issa, Chairman Darrell E., a Representative in Congress from 
      the State of California, prepared statement of.............     3

 
 PRESIDENTIAL RECORDS IN THE NEW MILLENNIUM: UPDATING THE PRESIDENTIAL 
    RECORDS ACT AND OTHER FEDERAL RECORDKEEPING STATUTES TO IMPROVE 
                    ELECTRONIC RECORDS PRESERVATION

                              ----------                              


                          TUESDAY, MAY 3, 2011

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m., in 
room 2154, Rayburn House Office Building, Hon. Darrell E. Issa 
(chairman of the committee) presiding.
    Present: Representatives Issa, McHenry, Jordan, Lankford, 
Amash, Buerkle, Gosar, DesJarlais, Guinta, Farenthold, 
Cummings, Maloney, Tierney, Clay, Connolly, and Murphy.
    Staff present: Ali Ahmad, deputy press secretary; Robert 
Borden, general counsel; Molly Boyl, parliamentarian; Steve 
Castor, chief counsel, investigations; John Cuaderes, deputy 
staff director; Gwen D'Luzansky, assistant clerk; Adam P. 
Fromm, director of Member liaison and floor operations; Linda 
Good, chief clerk; Frederick Hill, director of communications; 
Ryan Little, manager of floor operations; Justin LoFranco, 
press assistant; Mark D. Marin, senior professional staff 
member; Ashok M. Pinto, deputy chief counsel, investigations; 
Jonathan J. Skladany, senior investigative counsel; Becca 
Watkins, deputy press secretary; John A. Zadrozny, counsel; 
Krista Boyd, minority counsel; Ashley Etienne, minority 
director of communications; Jennifer Hoffman, minority press 
secretary; Carla Hultberg, minority chief clerk; Lucinda 
Lessley, minority policy director; Amy Miller, minority 
professional staff member; Brian Quinn, minority counsel; Dave 
Rapallo, minority staff director; Suzanne Sachsman Grooms, 
minority chief counsel; and Mark Stephenson, minority senior 
policy advisor/legislative director.
    Chairman Issa. The committee will come to order.
    Today we will hear testimony on the Presidential Records in 
the New Millennium: Updating the Presidential Records Act and 
Other Federal Recordkeeping Statutes to Improve Electronic 
Records Preservation.
    We exist to secure two fundamental principles: first, 
Americans have a right to know that the money Washington takes 
from them is well spent and, second, Americans deserve an 
efficient, effective government that works for them. Our duty 
on the Oversight and Government Reform Committee is to protect 
these rights. Our solemn responsibility is to hold government 
accountable to taxpayers, because taxpayers have a right to 
know what they get from their government. We will work 
tirelessly in partnership with citizen watchdogs to deliver the 
facts to the American people and bring genuine reform to the 
Federal bureaucracy. This is the mission of the Government 
Oversight Committee.
    Today's hearing concerns the status of executive branch 
compliance with the letter and spirit of the Presidential 
Records Act. The American people trust in the Presidential 
Records Act; they trust in this over 30-year-old piece of 
legislation to preserve for all time the records of each 
administration. Crafted in the aftermath of Watergate scandal, 
the act marked a major step forward in openness and 
transparency for the White House. By mandating the careful 
preservation of public accessibility of official records, the 
American people would have an accurate historical record of 
decisionmaking.
    The purpose of this act is clear, but history moves on, 
technology moves on, and today we deal, without a doubt, with 
an administration who has to, by policy, attempt to implement 
modernization of an act that never envisioned Facebook and 
Twitter. This is not a new problem, but it is a growing 
problem. The Clinton administration first had the digital age, 
but ultimately seeing that email versus paper mail is 
substantially the same and when printed is identical made it 
relatively easy to comply with.
    During the Bush administration, unfortunately, the move 
from Lotus Notes to Microsoft Exchange made us acutely aware 
that the quantity of digital information, if not lost but 
simply misstored, could end up costing us tens of millions of 
dollars to recover. In fact, the digital age is more complex 
and, if not handled correctly, is both more subject to loss of 
critical records and cost to preserve and recover them.
    We on the committee have broad oversight and we try to do 
each part of government as best we can. But we do have limited 
special responsibilities. The Presidential Records Act falls to 
this committee. We take seriously that the decades that have 
gone by have caused an act fully understood to be very 
difficult to implement. We look forward to our witnesses 
helping us as we begin to craft the types of legislative 
reforms that will codify good policy that has been developed by 
multiple administrations and go beyond that to make it clear to 
the American people that all transactions appropriate and 
equivalent to the original ones captured will be captured in 
the digital age.
    I now recognize the Ranking Member for his opening 
statement.
    [The prepared statement of Chairman Darrell E. Issa 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Chairman, first of all, before I begin, I would like to 
commend everyone who worked so hard for so long to bring Osama 
bin Laden to justice. I thank our military service members, our 
intelligence officials, our diplomatic corps, our law 
enforcement officials, and our Nation's leaders from both 
political parties. This was a sustained, unrelenting effort 
over a decade, and it shows that when America confronts its 
most daunting challenges, we can come together with a striking 
and inspiring unity of purpose.
    The Presidential Records Act and the Federal Records Act 
are landmark open government laws that are based on a 
fundamental principle that Federal agencies must retain records 
of their official business. These include records that have 
historical value, as well as records that are important for 
administrative, informational, and evidentiary reasons.
    The electronic age has brought new opportunities for making 
government work more effectively and efficiently on behalf of 
American taxpayers. It has also brought new challenges for 
ensuring that the Federal records are maintained properly.
    Previous administrations have experienced problems 
preserving electronic records, particularly emails. During the 
Clinton administration, the email system experienced technical 
problems that resulted in lost emails. During the Bush 
administration, the White House conceded that it lost hundreds 
of days of official emails, and top officials routinely use 
their Republican National Committee email accounts for official 
business.
    To address these problems, the current system now 
automatically preserves all emails from White House email 
accounts. In addition, White House computers block access to 
private email accounts like Gmail and Hotmail. Finally, if 
White House employees receive emails relating to official 
business on their personal accounts, they are directed to 
preserve those emails, either by forwarding them to their 
official accounts or by printing them.
    As cutting-edge technologies continue to develop, they will 
create additional opportunities and challenges. Government 
officials can now communicate with each other and with the 
American public in new and creative ways through Facebook, 
Twitter, and other social media outlets. We want to encourage 
this kind of innovation. At the same time, we must ensure that 
records of official communications are preserved.
    The Obama administration has worked closely with the 
National Archives to develop new policies relating to social 
media. To begin with, it has limited access to these platforms 
to a small fraction of White House employees. It has also 
worked with the National Archives to develop protocols to save 
official postings and samples of public comments in a manner 
that is consistent with its protocols for written 
correspondence.
    As you know, Mr. Chairman, I always believe more can be 
done, so the question for today's hearing is whether we can 
improve the Presidential Records Act and the Federal Records 
Act. The clear answer from this side of the aisle is yes. On 
March 17, 2011, I introduced H.R. 1144, the Transparency and 
Openness in Government Act, a package of five bills that 
overwhelmingly passed the House last Congress with broad 
bipartisan support, including your own, Mr. Chairman, and every 
Democratic member of this committee joined me, as an original 
cosponsor of this legislation.
    H.R. 1144 includes electronic message preservation act 
which modernizes the Presidential Records Act and the Federal 
Records Act to ensure that the White House and agency emails 
are preserved electronically. Right now the law requires only 
that these records be saved; there is no requirement that they 
be saved electronically. This legislation had such bipartisan 
support last Congress that it passed the House by voice vote on 
March 17, 2010.
    Since I introduced H.R. 1144 in March, a wide spectrum of 
open government groups has endorsed it. On April 18, 2011, a 
coalition of 17 organizations wrote to both of us seeking 
bipartisan support and prompt action in the House. They also 
said H.R. 1144, the Transparency and Openness in Government Act 
will enhance the effectiveness of Federal advisory panels, 
provide more access to Presidential records, secure electronic 
messages generated by administration officials, ensure 
donations to the Presidential libraries' open of the public 
record, and give the Government Accountability Office more 
teeth.
    Mr. Chairman, although you declined to become an original 
cosponsor of this legislation back in March, I hope that you 
and I can work together on this issue in a productive way. With 
that, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Issa. I thank the Ranking Member.
    We now go to our witnesses.
    The Honorable David S. Ferriero. I thank you for your 
testimony today on behalf of the National Archives and Records 
Administration. Your work there is critical to our 
understanding of where reform is necessary.
    Mr. Gary Stern, General Counsel to NARA, Office of 
Archivist.
    And Mr. Brook Colangelo is the chief information officer of 
the Executive Office of the President. I appreciate your being 
here today. As you know, we also wanted the policy team, but I 
know that you come with probably the most critical information 
for today, so I am pleased to have you here.
    Pursuant to the rules of the committee, could you all rise 
to take the oath and raise your right hands?
    [Witnesses sworn.]
    Chairman Issa. Let the record reflect that all witnesses 
answered in the affirmative.
    Mr. Ferriero, as you know, you have been here before, we do 
the green, the yellow, the red. The important thing is that all 
of your statements are on the record, and although you may go 
on script, to the extent that you can add to what is already 
going in the record, not simply repeat it, we would appreciate 
it. With that, you are recognized for 5 minutes. Thank you.

   STATEMENTS OF DAVID S. FERRIERO, ARCHIVIST OF THE UNITED 
     STATES, NATIONAL ARCHIVES AND RECORDS ADMINISTRATION, 
    ACCOMPANIED BY GARY M. STERN, GENERAL COUNSEL, NATIONAL 
ARCHIVES AND RECORDS ADMINISTRATION; AND BROOK COLANGELO, CHIEF 
INFORMATION OFFICER, OFFICE OF ADMINISTRATION, EXECUTIVE OFFICE 
                        OF THE PRESIDENT

                 STATEMENT OF DAVID S. FERRIERO

    Mr. Ferriero. Thank you and good morning, Chairman Issa and 
Ranking Member Cummings. Thank you for calling the hearing and 
for your continued attention to the management and preservation 
of government records. As you mentioned, General Counsel Gary 
Stern accompanies me this morning and will be available to 
answer questions from the committee.
    I am pleased to appear before you today to discuss the work 
that NARA does to implement the government recordkeeping laws, 
the Presidential Records Act [PRA], and the Federal Records Act 
[FRA]. The Archives have been responsible for setting 
governmentwide policy on how all Federal agencies manage their 
records since the enactment of the FRA in 1950.
    The FRA, however, does not apply to the President, the Vice 
President, and those members of their staffs that advise and 
assist them. Nor does it govern recordkeeping by Congress and 
the Supreme Court.
    The Presidential Records Act of 1978 established public 
ownership of all Presidential and vice Presidential records, 
but it vested all records management and authority entirely and 
exclusively with the incumbent president and vice president. 
The legislative history of the PRA states that the president is 
encouraged to implement sound records management practices.
    Because the PRA presumes that all Presidential records must 
be permanently preserved and transferred to the National 
Archives at the end of the president's administration, the act 
allows for comparatively straightforward records management 
policy; that is, the White House saves all Presidential 
records, with the exception of some publicly received bulk mail 
correspondence, where a sampling is saved, and all Presidential 
records are transferred to NARA when the president leaves 
office.
    In 1994, the Clinton administration established the policy 
of preserving all White House email records with an electronic 
recordkeeping system. The George W. Bush administration 
continued this policy. While both administrations experienced 
some problems, as you mentioned, preserving their emails, which 
required restoration projects, the overall concept of capturing 
and preserving electronic Presidential records in their 
entirety became the accepted practice. NARA staff has 
successfully transferred the electronic Presidential records of 
these two administrations, along with all other records into 
the National Archives.
    Throughout the course of an administration, both I and my 
staff provide guidance and advice on matters affecting White 
House records management when invited to do so. In this 
administration, NARA staff meet regularly with staff in the 
White House Office of Administration and other Executive Office 
of the President components on electronic records issues and 
provide guidance as requested. For example, we have provided 
advice on the preservation of Presidential record material 
generated by the White House and posted on social media Web 
sites and we have provided sampling methodology for archiving 
those types of records.
    NARA has testified several times before this committee on 
the continuing challenges that Federal agencies across the 
government have in managing and preserving electronic records 
under FRA. The FRA requires each agency to follow NARA's 
guidance and implement a records management program. We have 
developed an extensive set of regulations and guidance on how 
agencies need to manage their records.
    At the beginning of this administration, President Obama 
issued a Presidential Memorandum on Transparency and Open 
Government. NARA has subsequently emphasized that the backbone 
of a transparent and open government is good records 
management.
    To put it simply, the government cannot be open or 
accountable if it does not preserve and cannot find its 
records. In February 2011, we issued our second annual Records 
Management Self-Assessment Report with respect to how agencies 
manage electronic records. The report noted that records 
management programs at many agencies are at risk.
    In September 2010, NARA also produced a report on Federal 
Web 2.0 Use and Record Value that noted the Web landscape is 
evolving so rapidly that if we neglect to address these issues, 
we risk losing the truly valuable materials created by the 
Federal Government. In that report we made several 
recommendations, which are included in my written testimony.
    One of the fundamental challenges that agencies have in 
managing electronic records under the FRA, and what 
distinguishes them from records governed by the PRA, is the 
need to separate permanent records from temporary records. 
Electronic records management systems generally require 
significant user input to file individual records, resulting in 
few agencies managing and preserving their email records 
electronically.
    Rather, most agencies simply rely on print-to-paper as 
their official records management policy for email and many 
other electronically created records. While the FRA still 
provides a viable statutory framework for managing Federal 
records, we believe that there could be ways to modernize the 
FRA to improve the management of electronic records.
    Before closing, I do want to raise one critical but often 
overlooked point. Ultimately, responsibility for records 
management will always rest, to some degree, with individual 
Federal employees, no matter what systems are in place. That 
was true in an era of exclusively paper records and it remains 
true in an increasingly digital age.
    As the Archivist of the United States, I have made the 
management preservation and future access to electronic records 
my highest priorities. Indeed, as part of the transformation 
process that I have initiated within NARA, we have set up our 
own records management laboratory to develop and test best 
practices. I am committed to working with Congress, the White 
House, and Federal agencies to do all that we can to improve 
electronic records management and preservation.
    Mr. Chairman, this concludes my testimony. Thank you for 
your attention and I am happy to answer any questions that you 
have.
    [The prepared statement of Mr. Ferriero follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Chairman Issa. Thank you, Mr. Ferriero.
    Mr. Stern, I understand you don't have an opening 
statement. Do you have any comments at this time?
    Mr. Stern. No. I will just defer until questions.
    Chairman Issa. Thank you.
    Mr. Colangelo, you may proceed.

                  STATEMENT OF BROOK COLANGELO

    Mr. Colangelo. Good morning, Chairman Issa, Ranking Member 
Cummings, and distinguished members of this committee. Thank 
you for inviting me to participate in today's hearing on 
potential changes to the President Records Act and other 
records laws.
    I am pleased to appear before you to discuss information 
technology systems in place for the Executive Office of the 
President and their impact on electronic records management. I 
have served as the chief information officer of the Office of 
Administration since January 2009. OA provides common 
administrative and support services to the components of the 
Executive Office of the President, including the White House 
Office, the National Security staff, and Office of Management 
and Budget. As CIO, I oversee all unclassified enterprise 
technology systems and services.
    From the first days of the administration, it was clear 
that the EOP's IT systems were struggling to maintain stable 
and secure operations due to an aging IT infrastructure. Over 
82 percent of our assets were end-of-life and no longer 
supported by their manufacturer. Enterprise software was 
severely out of date and had not been upgraded in years. The 
EOP had a single data center and no viable plan for a secondary 
disaster recovery. These flaws led to multiple email and 
network outages in the first 40 days of the administration.
    We have devoted significant time and resources to 
modernizing the EOP IT systems in order to enhance stability, 
ensure security, and provide robust electronic records 
management. Among other initiatives, we have replaced network 
switches, overhauled our Internet connection, patched network 
gear, migrated to Exchange 2007, moved to BlackBerry Enterprise 
Server 5.0, increased and upgraded our storage area network, 
expanded our cybersecurity tools, and began to stand up a 
disaster recovery data center.
    Amid these efforts, we have worked proactively to improve 
electronic records management while adapting to emerging 
technologies. Although past White Houses have struggled with 
email preservation, starting from the first day of this 
administration, email has been preserved through an automated 
archiving system that was procured by the Bush White House. We 
are now taking steps to upgrade or replace this system before 
it becomes outdated. We have also upgraded our email and 
BlackBerry servers to improve the reliability, and we are the 
first administration to begin archiving SMS text and pin-to-pin 
messages on EOP BlackBerry devices.
    Although we have explored an enterprise solution for 
archiving records created on social networks, due to a lack of 
a suitable enterprise solution, EOP components currently use a 
combination of automated and manual methods to archive these 
records. Finally, we have installed a new content management 
system on the White House Web site that archives every change 
to the site.
    These initiatives have improved electronic records 
management on the EOP IT systems. Additionally, we have made it 
easier for staff to work on those systems. We have deployed 
secure mobile workstations, enabling staff to work on EOP 
systems while traveling or at home. Staff also have secure Web-
based access to EOP desktop and applications, enabling them to 
work in a records managed environment from any computer.
    We also restrict EOP network access to Web sites that could 
pose risks to records management or security. This includes 
sites like Gmail, Yahoo Mail, Facebook, Twitter, along with 
instant messaging sites like AOL Instant Messenger from the EOP 
network. A limited number of staff have access to approved 
social networking sites for official business, but cannot 
access Web mail sites like Gmail or Instant Messaging. Staff 
who receive access and are subject to the President Records Act 
receive supplemental briefing on their records management 
obligations. We also restrict the ability of EOP personnel to 
connect personal devices to the EOP network.
    These proactive IT measures are reinforced by EOP policies. 
Employees are instructed to conduct all work on EOP systems, 
including electronic communications, except in emergency 
circumstances when they cannot access the EOP systems and must 
accomplish time-sensitive work. Staff receive guidance that the 
PRA applies to work-related electronic communications on 
personal accounts and are instructed to take appropriate steps 
to preserve any records on their personal accounts such as 
forwarding those communications to their EOP account or copying 
their EOP account on outgoing emails.
    Through these proactive measures, we hope to improve the 
EOP electronic records management and address the challenges 
presented by emerging technologies. I hope this background 
information and my written testimony aids the committee's 
consideration of potential changes to the President Records Act 
and other Federal recordkeeping law.
    Mr. Chairman, I would be pleased to answer any questions.
    [The prepared statement of Mr. Colangelo follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Chairman Issa. Thank you. I recognize myself for 5 minutes 
at this time.
    Mr. Colangelo, are any of these carried into the White 
House?
    Mr. Colangelo. IPads, sir?
    Chairman Issa. Yes.
    Mr. Colangelo. We have not deployed iPads for enterprise 
use.
    Chairman Issa. Are any of these carried into the White 
House? Have you ever seen one of these into the White House?
    Mr. Colangelo. Yes.
    Chairman Issa. So people carry a product which circumvents 
your entire system by going to the AT&T network on a daily 
basis in the White House, isn't that true? Nothing stops 
someone from using this or other wi-fi connected not to any wi-
fi in the White House, but to AT&T, Verizon, Sprint systems, 
and they communicate freely from the White House to Gmail or 
any other account, isn't that true?
    Mr. Colangelo. Mr. Chairman, we have strong policy, along 
with enterprise technology, that captures our records on the 
EOP network.
    Chairman Issa. I heard you. Answer my question, please. If 
I take an app product into the White House, as I did last night 
for dinner, I have full communication capability; you don't 
block any Verizon, Sprint, AT&T, or T-Mobile. The fact is that 
people every day bring their private property into the White 
House and can Gmail, Hotmail and the like from within the White 
House, correct?
    Mr. Colangelo. Individuals are not restricted on what they 
bring into the White House on personal devices on the person.
    Chairman Issa. So someone, if they chose to, could be 
emailing back and forth to the DNC from the White House, and 
you would not have the ability to capture that, is that 
correct?
    Mr. Colangelo. We provide training and policy to staff.
    Chairman Issa. Please. I am asking only the technical 
questions because you don't make policy. I ask for the policy 
person; I was denied that person. So let's stick to 
straightforward. I am not after the President, I am not after 
the administration; I am after the changes in technology and 
whether or not we are equipped to deal with them.
    Today there are hundreds of products in the old Executive 
Office, in the Treasury Building, and in the White House proper 
being used to communicate, whether you like it or not, to 
private emails. They're simply connected, is that correct?
    Mr. Colangelo. That is correct, sir.
    Chairman Issa. OK. We are not making an issue out of it; 
that is the reality of the last decade of changes. And 
hopefully our work here is not about the current occupant of 
the White House, but about an act that has survived multiple 
presidents with ever-changing challenges.
    Mr. Ferriero, if someone were to produce a book 5 years 
from now and they had their Gmail records, their Microsoft Word 
documents, all of which were produced on private computers 
using the Cloud while they were sitting inside the White House 
or working as covered persons for the Office of the President, 
would you believe you're entitled to that source material under 
the Presidential Records Act?
    Mr. Ferriero. If that content was work for that 
administration, then, yes, that's a Presidential record.
    Chairman Issa. And don't most kiss-and-tell books that come 
out after a president is gone usually, but not always after, 
don't they basically talk about meetings, experiences and so 
on, and ultimately aren't they most often from information that 
is either written, typed, or in some other way captured during 
the time they are either employees of the White House or 
physically in the White House. That is just the reality of what 
we see post-president.
    Mr. Ferriero. Exactly. In fact, some of the heaviest users 
of our Presidential libraries' collections are former members 
of the administration.
    Chairman Issa. They have to supplement what they took with 
them. How do you propose, in a digital age, that we deal with 
those correspondence that occur? Ultimately, the President is 
both the head of the Armed Forces, the head of the 
administration, and the head of his party. How do we 
appropriately capture that which we should capture, not capture 
that which we shouldn't, by statute rather than policy?
    Mr. Ferriero. Well, as I said, the way the law is written, 
the control, unlike the Federal Records Act, the control of 
that content rests with the President and the Vice President. 
So the position that we have is guidance, is to provide 
guidance, and Mr. Stern meets with his colleagues from the 
White House on a regular basis to provide that kind of guidance 
and to understand how technology is being used in the White 
House.
    Chairman Issa. Are all of you comfortable that a ``I will 
decide which one of my Gmails fits that based on my training'' 
is sufficient?
    Mr. Stern. Well, it is our view that both statutes, even 
though they are old and were written in a time of principally 
paper records, are all-encompassing; they include language 
about included, but not limited to, all formats and all. So any 
official communications involving their work are presumptively 
Presidential records regardless of what system they are used 
on. It is also our clear understanding from this administration 
and prior administrations that the policy is you must use the 
government systems.
    Chairman Issa. Policy but not the statute. And as we 
already heard, they do use non-government systems; otherwise, 
there wouldn't be a policy that when you send and receive on 
your Gmail, you forward it into the official system. By 
definition, you can't have it both ways; you can't say the 
policy is that you only use official and then the policy is on 
those many, many, many, many occasions in which you don't use 
the official, please forward for the record. Clearly, the 
policy is not getting the job done completely.
    Mr. Stern. And I guess the question is does that occur 
often, or our understanding is it can occur in emergency 
situations and the like, and whether it occurs on a regular 
basis, we are not aware of that.
    Mr. Ferriero. But let me answer your question.
    Chairman Issa. Please.
    Mr. Ferriero. Your question was are you comfortable. No, I 
am not. Any time there is human intervention, then I am not 
comfortable.
    Chairman Issa. Thank you.
    Mr. Cummings.
    Mr. Cummings. Thank you very much.
    We can agree that Federal employees should not use personal 
email to conduct official business, I think. Is that right, 
gentlemen?
    Mr. Ferriero. They can if they forward that communication 
to their official email.
    Mr. Cummings. OK. However, there are many times when using 
personal email might be necessary. For example, in the event of 
a natural disaster or a terrorist attack, communicating on 
official email may be impossible, would you agree?
    Mr. Ferriero. Agree.
    Mr. Cummings. Mr. Colangelo, in your testimony you describe 
several instances where the White House system experienced 
email outages, is that correct?
    Mr. Colangelo. That is correct.
    Mr. Cummings. Certainly, it should be made clear to 
employees that it is their responsibility to forward any 
records created on their personal email to their official 
email.
    Mr. Colangelo and Mr. Ferriero, we don't want employees to 
just stop performing their duties in the White House or agency 
email system if it goes down, do we? We don't want that to 
happen if the agency system goes down, in other words, for them 
to stop doing business.
    Mr. Ferriero. Exactly.
    Mr. Cummings. So under that circumstance you want to make 
sure that they preserve whatever records they had.
    Currently, the White House blocks access to personal email 
on White House computers. Employees are prohibited from even 
connecting personal electronic devices to the EOP network, is 
that correct?
    Mr. Colangelo. That is correct.
    Mr. Cummings. Yet, some still promote the false notion that 
White House employees are sitting around all day on their 
personal iPhones, accessing these personal email accounts to 
evade the Presidential Records Act and the Federal Records Act.
    Mr. Colangelo, what more could be done? I suppose Federal 
agencies could ban employees from carrying personal cell phones 
at work. They could do that, couldn't they?
    Mr. Colangelo. That is more of a policy question, 
Congressman; I am a technologist.
    Mr. Cummings. And do we really want to create such an 
extreme big brother mentality like this?
    Mr. Ferriero, what else could we do?
    Mr. Ferriero. The evolving guidance that we are working on 
in this particular administration is a good indication of how 
the system should work in a healthy environment. As I said, the 
control is with the White House and the quality of the product 
depends upon the relationship with the administration.
    Mr. Cummings. But you are not stopping the use of personal 
email. In other words, do you think it is a good idea to 
require all Federal employees to stop using any personal email 
as a condition of Federal employment?
    Mr. Ferriero. There are instances as you describe when that 
is the only solution, and, as far as I am concerned, that 
should be the guidance; you use your personal connections when 
you don't have access otherwise.
    Mr. Cummings. OK.
    Mr. Ferriero. And you ensure that record then gets 
transferred to your official email.
    Mr. Cummings. So obviouisly there are extreme and 
ridiculous proposals designed to make a point. At its most 
basic level, compliance with recordkeeping laws comes down to 
employees making decisions, is that right?
    Mr. Ferriero. That is the human element I was talking 
about.
    Mr. Cummings. Yes. And, Mr. Ferriero, isn't there 
inherently some level of discretion that must be allowed to 
ensure that employees can comply with the law while also doing 
their jobs, is that right?
    Mr. Ferriero. That is right.
    Mr. Cummings. Now, last year you applauded our legislation, 
the legislation that I spoke of about in my opening statement, 
did you not?
    Mr. Ferriero. I did.
    Mr. Cummings. And you supported it with great enthusiasm, 
did you not?
    Mr. Ferriero. I did.
    Mr. Cummings. And why is that?
    Mr. Ferriero. Because it points us in the right direction 
in terms of how we deal with our electronic records, and it 
also raises the consciousness of Congress about the importance 
of records, which is a real problem that I have inherited as 
Archivist of the United States.
    Mr. Cummings. So would you agree with me that would be a 
giant step in the right direction?
    Mr. Ferriero. It points us in the right direction, I agree.
    Mr. Cummings. And is there anything that you would like to 
see added to that legislation?
    Mr. Ferriero. One of the things that worries me most is the 
retention issue. The way the Federal Records Act is currently 
written, we are still in a 1950's paper mode, where many 
agencies have a 30-year retention policy for their records. 
Thirty years in an electronic environment is incredibly 
dangerous.
    Mr. Cummings. Mr. Chairman, I failed in my opening 
statement to ask that the letter that I mentioned with regard 
to what I sent to you a while back, in March, with regard to 
our legislation and the Transparency Act and then the letter I 
sent to you yesterday just be a part of the record. I ask 
unanimous consent.
    Chairman Issa. The first one, without objection, so 
ordered. The one yesterday was on this subject?
    Mr. Cummings. Yes, yes. Just asking for a markup.
    Chairman Issa. Oh, of course. Then without objection, so 
ordered.
    [The information referred to follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Chairman Issa. Mr. Ferriero, you said things are so 
dangerous, and I don't think the Ranking Member got to hear 
what was so dangerous about 30 years in an electronic age.
    Mr. Ferriero. As you know, because of changes in 
technology, 30 years to be retained in an agency is a very long 
time. Different information technology systems being used, 
different records management systems being used, great risk of 
loss of records in 30 years.
    Chairman Issa. In other words, we can't read DOS 3.3 so 
well today. OK, thank you.
    The gentleman from Tennessee, Mr. DesJarlais.
    Mr. DesJarlais. Thank you, Mr. Chairman.
    We started in on this discussion just now on the 30-year 
problem in document preservation, and I think maybe we should 
explore that further. Mr. Stern, certainly feel free to jump 
in.
    Does the NARA favor elimination of the current 30-year 
presumption?
    Mr. Ferriero. Yes.
    Mr. Stern. And I would just add the 30-year issue is about 
when they transfer permanent records into the National 
Archives. For agencies only a tiny fraction of all the records 
they create are permanent for transfer into the Archives, and 
our concern is, on permanent records, we want to ensure we get 
them as early as possible so that we don't have a problem of 
format obsolescence.
    Mr. DesJarlais. Often on Presidential recordkeeping is it 
common that on the second term they are more aggressive getting 
these archived? Is it your presumption that we should start 
earlier in a president's term?
    Mr. Stern. The advantage of, in any Presidential term, even 
two terms, that is only 8 years at the longest, so that is 
relatively recent enough that we are able to get all the 
records in a reasonable good format. But we work with the new 
administration on day one and, from our perspective, we are 
planning a transition the first day the President is in office 
in terms of working and coordinating to ensure that all 
records, particularly electronic records, would be in the right 
shape and format so they can be transferred to us when the 
President leaves office.
    Mr. DesJarlais. OK.
    Mr. Ferriero, which and how many Federal agencies currently 
take advantage of pre-accessioning and turn over their 
documents before they are required to do so?
    Mr. Ferriero. Pre-accessioning?
    Mr. DesJarlais. The early turnover of documents.
    Mr. Ferriero. Only about half a dozen.
    Mr. DesJarlais. Half a dozen? And you would like to see 
that?
    Mr. Ferriero. Actually, as the Archivist, I would be really 
interested in getting in at the creation so that we have better 
control.
    Mr. DesJarlais. What part of the Federal Records Act would 
have to be updated to eliminate the current 30-year 
presumption?
    Mr. Ferriero. I believe it is Section 2107, 2108 have 
language with respect to the agency retention up to 30 years.
    Mr. DesJarlais. OK. Would the NARA prefer a default 
preservation rule that requires periodic turnover; quarterly, 
semiannually, annually, of agency electronic documents?
    Mr. Ferriero. We are exploring various models.
    Mr. DesJarlais. Mr. Stern, would the NARA be able to handle 
a shift to periodic submission of agency electronic documents 
at current funding and personnel levels?
    Mr. Stern. Yes, we think we will. In terms of the issues of 
pre-accessioning, we would just get copies for storage in its 
original format; the agencies would still have legal custody 
and be responsible for access, use, all of those issues until 
there is the formal legal transfer, which still could take 
place many years down the line. We just want to ensure we get a 
copy set that we can preserve in that original format.
    Mr. DesJarlais. Mr. Ferriero, shifting gears a little bit, 
the Federal Records Act appears to split the responsibility for 
managing Federal records between the NARA and GSA. Is this by 
design or a remnant of the old GSA authorizing statute?
    Mr. Ferriero. This is a remnant.
    Mr. DesJarlais. OK.
    Mr. Ferriero. In 1985 the agency separated from GSA and 
that still is in the law.
    Mr. DesJarlais. Are there any practical functional problems 
as a result of the fact that the Federal Records Act talks of 
GSA as having a role in the Federal record management?
    Mr. Ferriero. Not really.
    Mr. DesJarlais. OK.
    Mr. Ferriero. And they have never exercised any, at least 
in my experience they have never exercised any authority over 
records.
    Mr. DesJarlais. And do you have any idea what GSA's 
perspective is regarding possible clarification of duties?
    Mr. Ferriero. I am sure they would be amenable.
    Mr. DesJarlais. They would favor it?
    Mr. Ferriero. I would guess.
    Mr. DesJarlais. All right.
    Mr. Stern, what parts of the Federal Records Act would have 
to be updated to clarify NARA's exclusive custodial role?
    Mr. Stern. I believe that is in Chapter 29 is where they 
talk about the responsibilities of the Archivist and the 
Administrator of GSA. So that would be a place to look to 
clarify that issue.
    Mr. DesJarlais. And Mr. Colangelo, I wasn't meaning to 
ignore you; I was afraid I might mispronounce your name as 
well. But I am out of time and I will yield back, Mr. Chairman.
    Chairman Issa. You gave me back 12 seconds.
    Mr. DesJarlais. Well, I hate to do that.
    Chairman Issa. That is all right. We will let it happen 
this one time.
    The gentlelady from New York, Mrs. Maloney.
    I am sorry, I got my paper just as I announced the wrong 
order. So now I have the right order starting with yourself.
    Mrs. Maloney. I thank the chairman for calling this meeting 
on this important topic.
    A lot of what we are talking about today involves the 
preserving of Federal records, but preserving Federal records 
is really, in my opinion, not enough. I would say that it is 
equally as important to make these records available to the 
press and available to the general public.
    Now, the American people have a right to know what their 
government is doing, what meetings are taking place, what they 
are working on, and one of the ways that they are able to 
figure this out is by having the press really report on the 
records on what the government is doing. I would like to point 
out that the Obama administration has taken many very important 
steps to open up government and to allow the public to see what 
is taking place. It is probably the most transparent government 
in the history of our country, and I would like to give one 
specific example and ask for your comment on this.
    In December 2009, the White House began making all visitor 
access logs available on the White House Web site so the public 
knows who is wooing whom, who is going to the meetings; what 
are they working on; who has access. So I would like to ask Mr. 
Ferriero or Mr. Stern to comment on how important a step was 
this for the White House to make the visitor logs available to 
the general public, to the press to write about it. This is the 
first time in history this has been opened up to the American 
people. How important a step is this?
    Mr. Ferriero. I will start. I think it is incredibly 
important, but it also needs to be coupled with other heads of 
agencies releasing their calendars and their schedules also, 
and we haven't made as much progress there.
    Mrs. Maloney. Mr. Stern, do you have a comment?
    Mr. Stern. Well, with respect to those records, those 
records are preserved as Presidential records and they are all 
transferred to the National Archives when the President leaves 
office, so we have White House entry records going all the way 
back, even before there was an electronic system, even before 
to entry records in the Roosevelt White House. So it is 
certainly our mission as the National Archives to open records 
as quickly as we can when they come to us, and we always 
encourage the rest of the government to be as open as they can 
too.
    Mrs. Maloney. But this is the first time it has been opened 
to the general public before it went to Archives or put on a 
Web site.
    Mr. Stern. I believe on a systematic basis, that is my 
understanding, yes.
    Mrs. Maloney. I would also like to point out that this 
administration has probably been more effective than any other 
in the history of our country and has made use of the social 
media, such as Facebook, Twitter, YouTube, blogging, and these 
applications bring great innovation and allow people to have 
access to what our government is doing and what the activities 
are, but they also bring very special challenges for the 
archiving of this information because of the tremendous volume 
that is generated every single day.
    So I would like to ask you, Mr. Ferriero, the National 
Archives has a blog, Facebook page, Twitter, and YouTube 
accounts. How do you preserve the records generated on this 
social media? How do you preserve it now?
    Mr. Ferriero. It is an exciting time to be the Archivist 
because of the rapid changes in technology and also because of, 
as you mention, the volume of content that is now being 
generated. We have developed guidelines for the agencies to 
consider their use of social media; it is on our Web site and 
we have raised a series of questions with them to analyze the 
content of their postings on social media to make decisions 
about whether they are records or not. If they are records, 
then they need to be captured just as under the guidance of the 
Federal Records Act, and we have provided guidance on the 
capture of that content also.
    Mrs. Maloney. Would you say the benefits of using social 
media and these various tools to communicate with the general 
public outweigh the challenges posed to archiving it?
    Mr. Ferriero. Yes, definitely. This administration is 
committed to involving the American public in the workings of 
government in a way that it has never been involved before, and 
this is the way it is happening.
    Mrs. Maloney. I would like to close, since both of you have 
mentioned the importance of having the agencies involved and 
that the performance of the agencies in managing electronic 
records are equally as important, and I would just like to 
point out that we have a bill before Congress, the Message 
Preservation Act, that calls upon the agencies to 
electronically save this information and to save their emails 
electronically, and I urge my colleagues on both sides of the 
aisle to join me and many others in pushing for the passage of 
this bill.
    Thank you very much. My time has expired.
    Mr. DesJarlais [presiding]. The gentleman from North 
Carolina is recognized for 5 minutes.
    Mr. McHenry. Thank you, Mr. Chairman.
    Dr. Ferriero, thank you for being here. I certainly 
appreciate your leadership and your time, and certainly I 
appreciated it with Chairman Clay last Congress, having 
oversight in our subcommittee of NARA, and appreciate the hard 
work that you do. Also appreciate the fact that you have a 
North Carolina connection.
    I wanted to ask you about the print-to-paper policy. Could 
you discuss the drawbacks to this idea that rather than keeping 
a digital record, which seems more efficient, easier to search, 
easier to maintain, I would guess it would be easier to 
maintain, compared to this idea that you simply print something 
off and put in a file?
    Mr. Ferriero. I already have 10 billion pieces of paper; I 
don't need any more paper. It is embarrassing that in the year 
2011 our guidance is print and save. We should be capturing 
this electronically. I have 44 facilities around the country. 
The storage costs for paper are enormous.
    Mr. McHenry. In what ways can we improve this?
    Mr. Ferriero. The guidance in the EMPA is to acknowledge, 
as we have in the Presidential Records Act, acknowledge 
electronic communication as record. That will help.
    Mr. McHenry. What part of the Federal Records Act would 
have to be updated in order to insist that we have electronic 
records?
    Mr. Stern. You would have to look at the specific 
provisions, but we are familiar with the legislation, the EMPA, 
and that would amend I believe it is through Chapter 29, and 
there may be other provisions that warrant looking at in terms 
of mandating electronic preservation of at least electronic 
messages, as that statute does, and our view is that we support 
the goals of that effort.
    Mr. McHenry. Now, Dr. Ferriero, we have discussed this 
before in a larger, broader context. You inherited a lot of 
difficulties come in as Archivist, and I have asked you this at 
every hearing that you have been before the committee, so you 
probably know where I am going with this, but in terms of how 
employees rank their happiness with their job and fulfillment 
with their job, NARA has had some challenges.
    You discussed 44 facilities. It is a pretty large 
institution you are running. But in comparison to other Federal 
employees' work satisfaction hasn't been the highest at NARA 
and that has led, in my opinion, to some data losses based off 
of people not getting full fulfillment out of their job, 
haven't taken the pride in preserving some of these documents. 
Now, I know you have a very credible staff, you have great 
folks that work at NARA, but what have you done to improve this 
in the year and a half now, 18 months you have been on the job?
    Mr. Ferriero. You are right, we are tied for last place in 
the Employee Viewpoint Survey, tied with HUD, and it is not 
where I want us to be. We have, in the past 8 months, gone 
through a major reorganization, transformation of the agency, 
created basically a new organization, driving out repetitive 
kinds of operations and streamlining and making it more 
efficient, but most importantly putting our user community in 
the center of what we are doing and engaging the staff in this 
process. And the engagement of the staff through social media 
internally has really had an impact on how people feel about 
being part of one large agency.
    I visited now 32 of our 44 facilities, so I have had an 
opportunity to meet firsthand with the staff to talk to them. 
First question: What is it like to work here? Tell me the 
stories. With and without supervisors. So I have gotten a 
really good picture of what works and what doesn't work, and we 
are serious about turning that around to make it the best 
agency in the government.
    Mr. McHenry. Very good. Very good. Thank you for your 
testimony today and thank you all for your service to our 
government.
    Mr. DesJarlais. The Chair now recognizes the gentleman from 
Missouri, Mr. Clay, for 5 minutes.
    Mr. Clay. Thank you, Mr. Chairman.
    Archivist Ferriero, it is very good to see you again. I 
would like to take a moment to say that you are doing an 
outstanding job leading the National Archives. Your 
reorganization, your transformation of the agency will, I 
believe, result in vastly improved services to all the 
stakeholders and customers that you serve. This is especially 
true regarding open government and electronic records 
management.
    I would like to ask you about regulations. As you know, the 
House, last year, passed the Electronic Message Preservation 
Act [EMPA]. Under this legislation, you would be required to 
issue regulations to agencies and the White House on the 
preservation of electronic messages. This Congress, Ranking 
Member Cummings has introduced H.R. 1144, the Transparency and 
Openness in Government Act, which includes the language of 
EMPA. H.R. 1144 also includes the Presidential Records Act 
amendments, which overwhelmingly passed the House the last 
Congress.
    Archivist Ferriero, would these improvements, along with 
the existing statutes, provide you with the tools that you need 
in order to help agencies comply with Federal recordkeeping 
statutes and can you elaborate on how exactly these 
improvements would be helpful.
    Mr. Ferriero. We are very supportive of the direction of 
H.R. 1144. As I said, and I don't want to keep repeating 
myself, my biggest concern is about retention, how long 
electronic records are retained in the agencies. If we can deal 
with that, I will be happy.
    Mr. Clay. Thank you. So you agree that we need to get rid 
of the paper.
    Mr. Ferriero. I agree. I love paper, but----
    Mr. Clay. You have driven that point home this morning 
about paper; it does become cumbersome and there are ways to 
transfer that data over to electronic means in this day and 
age.
    Let me ask Mr. Colangelo what is the current state of the 
White House email archiving system, is it up to task?
    Mr. Colangelo. Congressman, yes, the email archiving is 
fully operational and is ingesting all email, to the best of my 
knowledge.
    Mr. Clay. This is more of a comment than a question, but 
during the previous administration this committee discovered 
something very disturbing. This was after we learned that the 
previous White House was unable to properly manage the emails 
in their system and many were lost. On top of that, dozens of 
senior White House officials conducted official business using 
their Republican National Committee email accounts instead of 
their official government accounts. Countless records, perhaps 
millions, that should have been preserved under Federal statute 
were lost.
    Mr. Colangelo, do we have to worry about those same 
problems in this White House?
    Mr. Colangelo. Congressman, what we have done since 2009 is 
worked with the technology that the Bush administration 
procured, which is a commercial off-the-shelf product, a proven 
technology to archive records. So the EOP email systems are 
being archived. Additionally to that, we have also stabilized 
our systems and enhanced mobility so that we offer users many 
choices to access the EOP system when they need to do their EOP 
work either from a laptop or a secure Web-based system, so that 
they have the opportunity to do EOP work anytime.
    Mr. Clay. Thank you for your response and all of the 
witnesses' responses.
    Mr. Chairman, I yield back.
    Mr. DesJarlais. The Chair thanks the gentleman.
    The Chair will now recognize the gentlelady from New York, 
Ms. Buerkle, for 5 minutes.
    Ms. Buerkle. Thank you, Mr. Chairman, and thank you to our 
panelists for being here this morning.
    My question has to do with the split between the 
responsibility for managing Federal records with regards to 
NARA and GSA. If you could, what we are looking at right now 
appears to split the responsibility. Is that by design or is 
that something that was it just so happened that way?
    Mr. Stern. Yes, the National Archives used to be part of 
GSA, and in 1985 we were split and became an independent agency 
from GSA, but when they revised the statute at that time, they 
left some responsibilities for economy and efficiency and such 
with GSA in coordination with the Archivist of the United 
States. Our experience in the last 25-plus years is that GSA 
has really lost interest and hasn't played any functional role 
in dealing with management and preservation of records, so I 
think it is not unreasonable to consider whether they need to 
have a role in the statute. And as the Archivist testified 
earlier this morning, we don't think GSA will likely have any 
resistance either.
    Ms. Buerkle. I apologize, I have been advised that this has 
already been covered before I got here, so I apologize for 
that.
    Let's go to the whole email question and the preservation 
of those. Do you have, Mr. Ferriero, any recommendations 
regarding potential additional rules for ensuring that the 
transfer of the Presidential administration electronic 
documents will be finished within a 60-day timeframe? How can 
we make sure that happens?
    Mr. Ferriero. I am not sure the 60 days, where that comes 
from. The transfer actually happens at the end of the 
administration, so everything is retained in the White House 
until the administration changes. In fact, during the 
inauguration ceremony Archive staff is in the White House.
    Chairman Issa [presiding]. Would the gentlelady yield?
    Ms. Buerkle. Sure.
    Chairman Issa. To the gentlelady's question, would you 
prefer that there be transfers during the administration so 
that, in fact, if there are any questions, you find out about 
them while they are still using the same software and the same 
personnel are still there?
    Mr. Ferriero. That is a good question. As I said, we have 
these regular meetings with our colleagues in the White House 
about how they are managing their records. I hadn't really 
thought about capturing them sooner. It is certainly an 
attitude I have on the other side, on the Federal records 
scenario.
    Ms. Buerkle. I believe that this issue is raised because, 
in the instance where, obviously with President Clinton and 
President Bush, those were two terms, but in the event that 
there was a single term president, the turnaround within the 60 
days, I think that is where that question came from.
    Mr. Ferriero. I see.
    Ms. Buerkle. Thank you. I yield back.
    Chairman Issa. Would the gentlelady further yield?
    Ms. Buerkle. Sure.
    Chairman Issa. Mr. Ferriero, you earlier talked in terms of 
what could be captured, what couldn't be captured. Obviously, 
the Ranking Member and I have an agreement that in times of an 
emergency in which the system is down, you come as you are, 
bring what you have, and do what you must.
    But assuming that there are covered persons, and we would 
have to define covered persons not to be just anybody, but 
covered persons that have personal emails and personal 
Facebooks, do you believe the statute should give an absolute 
right for those covered persons' documents, if you will, to be 
reviewed by a third party to ensure that there is compliance 
with the law?
    I am not talking about, you know, if you will, preempting 
people's personal rights, but if you are a covered person and 
you have access and you may or may not have used it, is that 
discretion something you would like see reviewable at least by 
the Office of the Presidency itself?
    Mr. Ferriero. Certainly by the Office of the Presidency, 
yes. And I could, after more thought, extend that. My concern, 
as I have said, has to do with any time there is the human 
element involved, when someone has to make a decision and 
remember to transfer those to their official email system. The 
beauty of the White House email system now is it automatically 
captures it.
    Chairman Issa. It is 100 percent even if it is just you 
emailing your wife to say you will be late, like so many people 
do at the White House everyday.
    Mr. Colangelo. Correct. It preserves all inbound and 
outbound communication.
    Chairman Issa. So I guess my followup, Mr. Colangelo, is 
since you capture 100 percent of all communication on the 
Exchange system at the White House, and since that includes 
private conversations that do occur, I mean, people do email 
home ET, I am phoning home, I won't be home at any reasonable 
time tonight, they just killed bin Laden, if that happens, you 
capture it, it is there.
    Thirty years from now people will be able to see what 
somebody said that evening to their family on why they weren't 
going to be home until after midnight. Shouldn't we, in 
reverse, also have that ability to collect data from covered 
persons the other direction in some organized way, in your 
opinion?
    Mr. Colangelo. From a technology standpoint, Mr. Chairman, 
I am not necessarily sure how we would collect data from 
personal accounts.
    Chairman Issa. The time has expired. I yield back.
    At this time we recognize the gentleman from Virginia, Mr. 
Connolly, for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman. And, Mr. Chairman, I 
would ask, without objection, my opening statement be entered 
into the record.
    Chairman Issa. Without objection, so ordered.
    [The prepared statement of Hon. Gerald E. Connolly 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Connolly. I thank the Chair.
    Mr. Ferriero, NARA's 2010 Records Management Self-
Assessment Report identifies several difficulties in managing 
electronic records: technological complications and 
preservation, proper disposition, the volume, propriety in 
cutting-edge technologies to create records, and decentralized 
environment in which they reside. What mechanisms are currently 
in place to encourage collaboration between records management 
and IT professionals as needed?
    Mr. Ferriero. That is a terrific question. I have been the 
Archivist for 18 months and----
    Mr. Connolly. Did you hear that, Mr. Chairman? It was a 
terrific question.
    Mr. Ferriero [continuing]. And one of the first 
partnerships I created was with the CIO. The CIO sits at the 
head of the CIO council. We have a records management council 
also, and I discovered that the records managers and the 
information officers have never worked together, talked, met 
together. So the situation is that we have the IT folks off 
developing systems, all of which have records implications, not 
talking to their records managers. So we convened the first-
ever joint meeting of the two to start this relationship of 
records managers being at the table with their CIOs as new 
systems are being developed.
    The situation is even more complicated for me because, in 
the wonderful world of the Federal job family, there is no such 
thing as a records manager. So we are working now with OPM to 
create a family of jobs around information management that will 
address the problem. So the result is in many agencies and 
subagencies the assignment for records management falls to the 
most junior person in the agency; not a full-time job, high 
turnover, not very well trained, and we get what we get from 
that situation.
    Mr. Connolly. A recent report by the American Council for 
Technology Industry on government best practices for social 
media recordkeeping identified the need to develop 
communications between social media team and records management 
as best practice No. 1. The report also said until best 
practices and tools emerge to assist in the records management 
of social media records, agencies were tending toward retaining 
all social media content so that those portions of the records 
are protected.
    Given the overwhelming volume of data this could encompass, 
I would be interested in your thoughts about what is the best 
practice going forward? What are the challenges of the save 
everything approach to management?
    Mr. Ferriero. The issue that I described about the CIOs and 
records managers is similar to records managers and Web 
managers. So we have recently brought together the Federal Web 
managers and the records managers to talk about this very issue 
of what needs to be captured and how it needs to be captured. I 
referred earlier to some guidance that NARA has provided for 
helping those folks responsible for the social media to ask a 
series of questions about the content to determine whether it 
is record or not record.
    Mr. Connolly. You make reference to NARA and I think there 
was some indication that these best practices would be put on 
the Web site. Any idea of time line for that?
    Mr. Ferriero. The guidance is up, the report is up. In 
terms of best practices, that is coming. When?
    Mr. Connolly. What is that?
    Mr. Ferriero. Within a year.
    Mr. Connolly. Without a year. Hopefully sooner.
    Mr. Ferriero. Yes, I agree.
    Mr. Connolly. My time is almost running out but, Mr. 
Colangelo, is it really reasonable to expect employees in the 
White House not to, from time to time, have to use Gmail or to 
use their iPads to communicate with spouses, friends, family, 
whatever? I mean, that is not something that is normally 
enforced in the normal workplace.
    Mr. Colangelo. That is correct. That communication also 
takes the stress off of our system, so it reduces the work 
system as only for work systems, and it keeps the clear 
separation between personal and government issue equipment.
    Mr. Connolly. So people are allowed to use their work 
computers for Gmail?
    Mr. Colangelo. No. I am sorry. On their government 
equipment they are not allowed to access social media or Web-
based email sites, it is blocked from a technical standpoint on 
our network.
    Mr. Connolly. So it is a much stricter standard than exists 
in most workplaces.
    Mr. Colangelo. That is correct.
    Mr. Connolly. I thank you.
    My time is up, Mr. Chairman.
    Chairman Issa. Thank you.
    The gentleman from Oklahoma is recognized, Mr. Lankford.
    Mr. Lankford. I would like to yield back my time to the 
chairman at this point.
    Chairman Issa. Oh, OK. Well, I will take the time for a few 
minutes. I thank the gentleman.
    Mr. Ferriero, you oversee, from a FOIA standpoint, a 
tremendous amount of information, even though you work with the 
libraries where many of the assets reside. Ultimately, a 
Freedom of Information Act request on any president covered 
under your records, your many archives, belongs to you, isn't 
that correct?
    Mr. Ferriero. That is right.
    Chairman Issa. How many people do you have, roughly, doing 
FOIA within your jurisdiction? Directly and indirectly, because 
obviously librarians at the various libraries assist.
    Mr. Stern. We do submit a report to the Department of 
Justice that has that number. I am afraid I don't remember 
specifically.
    Chairman Issa. It is in the many hundreds, though.
    Mr. Stern. Yes. At the Presidential libraries where FOIA 
applies, which is Reagan forward, there is probably about 
roughly 50 archivists doing FOIA review and processing, and 
then there is at least that number dealing with Federal 
archival records here in Washington and in our regional 
archives.
    Chairman Issa. But if I can followup, the desire to FOIA 
30-year-old material generally from the government is pretty 
minimal, right? In other words, agencies control for 30 years 
their documents; you control them when they are too old for 
anyone to ask.
    Mr. Stern. Well, the original model of the archives was you 
wanted the records to get to an age where they are no longer 
needed by the agency and where the restrictions pretty much are 
lifted. So in the old model, after 30 years, when they 
transferred records to us, we could presume that the records 
were virtually open in their entirety, unless there was 
classified information or personal privacy information. So the 
ideal is, when they come to us, we can just make them open; you 
wouldn't need to make a FOIA request because you could just 
come to the research room and we could provide them.
    Chairman Issa. Following up on that, because this really is 
a major reform committee on both pieces of legislation 
question. Today, if President Obama were to decide not to run 
for a second term, which I understand he has already made that 
decision, you are only 2 years away from receiving 4 years of 
information.
    So you have this variable that goes from 4 years to 8 
years; presumably it will be 8 years for this administration 
like it was for the previous two. But when I look at the 
Department of Homeland Security, you have decades before, under 
completely different cabinet officers, those records are going 
to be available.
    In a sense, in your opinion, and, Mr. Ferriero, I think I 
will bring this one to you, in a sense, doesn't an 
administration's sunset and an even hand of a nonpartisan 
entity become the more logical custodian at the end of an 
administration of, for example, Department of Homeland Security 
from the Bush administration? Right now Secretary Napolitano 
hires 400 people to decide whether or not Bush era records are 
publicly available or not.
    Does that seem like an area of modernization that we should 
hold hearings on and decide whether or not to take the entire 
presidency as a period of time in order to refresh broadly? And 
that is why I asked about your own history, because you are 
making FOIA decisions on President W. Bush today, while in fact 
you are not making decisions on any of his people and his 
administration. Instead, the succeeding administration of the 
opposite party is making those decisions. Complex question. 
What would you say?
    Mr. Ferriero. But it is an interesting thought.
    Mr. Stern. Well, I would just add, under the Presidential 
Records Act, when we receive the records from an 
administration, there is a 5-year period where there is no 
public access. So, in fact, right now there is still no access 
under FOIA----
    Chairman Issa. Without joint consent.
    Mr. Stern. Well----
    Chairman Issa. An administration can choose to release. 
There have been releases after an administration has gone 
sunset, but they have been in concert.
    Mr. Stern. Before the 5-years, a very tiny amount. So 
generally it is not until 5 years after the administration 
leaves office that we start opening records to FOIA requests on 
a systematic basis.
    Chairman Issa. But that is still 15-plus years sooner than 
you will the cabinet officers' records.
    Mr. Stern. So the notion that if we were to get more 
records earlier and have to process them, I think it would have 
to be accompanied by rather massive addition of staff and 
resources to deal with the processing element of it, and part 
of the old model is they are the agencies' records, the 
agencies can decide on the restrictions and on access, and they 
have greater resources than we would have if we take in massive 
amounts of agency records in addition to Presidential records.
    Chairman Issa. Well, even my borrowed time is now expiring, 
but I would let you know what I am thinking, and the Ranking 
Member. It has become my at least straw person belief that in 
fact FOIA should broadly not belong to the administration; that 
it should be handed off in its greatest portion to individuals 
who report to someone who wants public information public, 
private information private, and who is apolitical.
    That general belief doesn't change the fact that the 
Department of Defense, what is going on today, must be 
determined by the Department of Defense and its current cabinet 
officer. But the sooner that transfer were to occur, the more 
likely the public would have a fair right to know not in any 
way determine either by the vindictiveness of the next 
administration or the graciousness of covering up by the next 
administration, both of which, quite frankly, the record shows 
there has been a certain amount of that has gone on under both 
parties.
    I recognize the Ranking Member for his second round.
    Mr. Cummings. I was just listening to the chairman's 
proposal. One of you said that everything seems to boil down to 
discretion, even a proposal like that, determining which 
records are supposed to be released under FOIA.
    But let me go back to you, Mr. Ferriero. You, in answering 
one of the chairman's questions, he was talking about those 
personal emails where somebody says I have to stay late because 
something has gone on in the White House, just a little note to 
their wife or husband, whatever. You are not trying to preserve 
those kind of records, are you?
    Mr. Ferriero. They are. They are captured.
    Mr. Cummings. But that is not the kind of stuff that you 
really are that interested in.
    Mr. Ferriero. Well, it is interesting because I learned a 
lot when we were working on the Elena Kagan confirmation 
hearing and we had to deliver a lot of content from the Clinton 
White House, 65,000 email messages that Elena Kagan had some 
role in, and very often those messages were a combination of 
personal and business, and it is hard to separate out, unless 
you are going message by message and determining what is 
personal and what is not personal. So the procedure, policy in 
the White House now of capturing everything works for me.
    Mr. Cummings. Mr. Colangelo, in the beginning of your 
testimony you talked about how you had to come in and equipment 
apparently was outdated and there were some problems. We needed 
to just bring, I guess, our software up so that it could do the 
job we needed it to do. And I am wondering where are we now 
with that and how do you make sure--I was just telling the 
chairman a few minutes ago that he and I came along a while 
back, and we can still remember when people were using carbon 
paper and typewriters, and now all technology changes, seems 
like, every 5 or 6 days, if not every day.
    So how do you keep up with that? How do you make sure you 
stay on the cutting edge and at the same time make sure that it 
is a balanced approach so you are not just getting equipment 
that is going to be outdated tomorrow? And I ask that so I am 
just trying to figure out the efficiency and effectiveness of 
maintaining these records. Do you follow me? Believe it or not, 
I have some 8-tracks in my basement and nothing to play them 
on. So I am just wondering.
    Mr. Colangelo. Thank you, Mr. Cummings. Congressman, what 
we did in the beginning of the administration was really invest 
in stabilizing our core. We averaged somewhere in the 70 
percent uptime in the first 40 days of the administration; now 
we are over 99 percent operational uptime. We had to replace a 
lot of key systems because they were in need of upgrade.
    How we do this now, going forward, is we have a continual 
investment in our infrastructure so that it is not an uphill 
battle, it is a constant level flow, that we are constantly 
upgrading new systems, as I mentioned in my testimony, where we 
are looking at upgrading our archiving system before it becomes 
out of date. So let's beat that before it gets to that end-of-
life state.
    And now we constantly look at new technology before 
integrating it into the EOP enterprise to ensure that it does 
follow the compliance and records management and helps meet the 
business need. So it is constantly meeting that business need 
and also making sure that we are compliant with that.
    Mr. Cummings. Finally, Mr. Chairman, I would just again ask 
that we schedule a date as soon as possible for the marking up 
of 1144. Mr. Ferriero, I think, has agreed that this is a giant 
step in the right direction. It is really noncontroversial and 
I think it is something that we all could be proud of and could 
in a bipartisan way. Again I ask that and, with that, I yield 
back.
    Chairman Issa. I thank the gentleman.
    I will just do a very short second round myself.
    Mr. Ferriero, the challenge you face would appear to be 
that each administration delivers you records in a certain way. 
The Clinton administration, as I understand it, delivered you 
Lotus Notes as a system.
    Famously, from this committee's standpoint, the next 
president tried to take Lotus Notes and transfer it to 
Microsoft Office Suite, including Exchange, and then 
discovered, among other things, that they are image backups and 
were not capturing. So we have seen these transitions.
    What is it we can do for you broadly, as the Archivist, 
either through mandating that the systems that are delivered to 
you be in an open format or an interoperable format or in some 
format that at least allows you to port them in the future that 
would help you? As we look at updating these things, there is 
sort of the question of paper was understood. You could specify 
8\1/2\ by 14 bond paper with 10 courier. But those days are 
gone. And if I had DOS 3.3 WordPerfect followed by we won't 
even go through SuperCalc and all the other programs that are 
long forgotten, they would deliver me an amazing nightmare. You 
have that, don't you?
    Mr. Ferriero. I do have that nightmare, and it makes paper 
look very good today. The electronic records archive that we 
are creating, in fact, is designed to accommodate those changes 
in technology as well as changes in attachment. It has 
neutralized formats basically to make it possible for us to 
migrate the digits through time so that they are available in 
perpetuity.
    On the other hand, being much more involved at the creation 
point, as I talked about earlier, is important to us so that we 
can establish standards around email creation and electronic 
record creation and capture.
    Chairman Issa. So, in closing, if, in our modernization 
legislation, we mandated that all agencies give you sufficient 
comfort with their preservation on an annual basis so that 
either the material could be transferred or changes could be 
made so that the next year you are not getting 2 years of 
information that is going to be very expensive to change, that 
would be helpful. Second, if in fact we design for transfer at 
the front-end, then you could save and the American people 
could save a huge amount of money, isn't that correct?
    Mr. Ferriero. I agree.
    Chairman Issa. Well, that will be among other things in our 
legislation.
    I will close. Mr. Colangelo, you talked about the good and 
the bad of the Bush administration. Is there a way that we 
could ensure that the funding and the capability of each 
administration were more best practices as a matter of course, 
or is it simply that President Bush did a great job of 
capturing email archives and creating the Naz and the Volt and 
so on, while toward the end refreshing servers was not a 
priority and you inherited them over 3 years old? Those kinds 
of good and bad, should we have a role or are you satisfied 
that each administration does the best they can and hands off?
    Mr. Colangelo. From a technology standpoint, I think it is 
important to invest in infrastructure so that there is a 
continual flat line there versus the up and down.
    Chairman Issa. OK.
    I might note, by the way, that the White House has almost 
always been at least one generation of the Exchange system 
ahead of the House.
    With that, I thank all of you.
    Oh, I apologize. Now I would recognize Mr. Lankford for a 
second round.
    Mr. Lankford. Thank you very much, Mr. Chairman.
    Mr. Colangelo, I just had a couple questions for you. 
Reading through your notes, and I apologize for slipping in a 
little bit late here. Tell me a little bit about the Facebook 
tracking and Twitter. I know certain sites or certain locations 
have that, have access; others are blocked from that. How is 
that being tracked? I see some conflict in how we are able to 
handle that with the technology.
    Mr. Colangelo. Thank you, Congressman. So, from a 
technology standpoint, we have an enterprise-wide gateway that 
blocks all staff from accessing these, and then when a 
component staff member makes a request for this, it is reviewed 
by their counsel and then if it is appropriate for the business 
use, they are allowed access through a certain policy and they 
have access to an approved number of sites.
    We have looked for an enterprise-wide preservation system. 
Technology hasn't matured enough currently, but we are 
continuing to look and hoping that it will come around. What 
happens now is records are preserved by a component-by-
component basis. And I know today actually the White House 
released a blog post on WhiteHouse.gov describing their process 
for capturing records on some of these sites.
    So, for example, on Twitter they use an RSS, Real Simple 
Syndication, that emails back into the email archive system, 
and Facebook uses screen captures. And then for different sites 
there are APIs that capture this and then sometimes it is just 
electronic capturing of a screen.
    Mr. Lankford. But the email system that you use 
specifically with Facebook or the message-to-message with 
Twitter, how are those captured?
    Mr. Colangelo. For every individual that is provided access 
into the social networking sites, they are provided additional 
guidance and training from legal counsel on their Presidential 
Record Act obligations.
    Mr. Lankford. Right. But you are saying currently they are 
not capturing, so the other Gmail and those things are blocked 
for that, but the actual email out of Facebook, they are just 
given guidance saying don't do it on that one, but they are not 
actually tracked, they are not recorded, they are not anything. 
So a personal message, for instance, on another email, don't 
forget to grab milk on the way home, would be captured through 
the traditional email system, but a message that is going 
through Facebook, through the email system on that, for those 
computers, would not be captured in any way.
    Mr. Colangelo. Personal email is blocked, again, from all--
--
    Mr. Lankford. Right. I mean, if they did it through the 
traditional system.
    Mr. Colangelo. On the individual users, it is managed on a 
component-by-component basis for those who have access to those 
suites. As I mentioned, we don't have an enterprise 
preservation system currently available.
    Mr. Lankford. OK. Is that an issue for us, that there is 
basically email that is going through our system that basically 
they are just told not to do anything on that should be related 
to official business, that would just be personal on that, or 
what are the parameters that are given to them to say you have 
access to Facebook, but please don't in these areas?
    Mr. Colangelo. I know that the guidance is pretty detailed. 
I don't have that access, so I haven't gone through the 
training, so I can't actually speak to that.
    Mr. Lankford. OK. Do you consider that to be an issue for 
us at this point, that we do have a series of email 
communications that are hanging out there that we are not 
archiving, or do you think that--how can we know on that one 
way or the other?
    Mr. Colangelo. From a numbers perspective, it is roughly 2 
percent, as I noted in my written testimony, so 2 percent of 
the EOP population that have this access on the government 
systems. And these users are special users in and of 
themselves.
    Mr. Lankford. That is part of the issue. It is not just 
that there is 2 percent, it is who are the 2 percent I guess 
would make a significant difference.
    Mr. Colangelo. Sure. And the users are largely the White 
House new media team, the folks that manage the President 
Obama's Facebook and the other Facebook accounts out there. And 
then I know it is also for some lawyers for assessing of 
candidates, as it is a common corporate practice as well to 
look at social networking.
    Mr. Lankford. Is that something that we would consider 
valuable in a preservation status?
    Mr. Ferriero, is that something that you would think, 
somewhere down the road, people would want to be able to look 
at?
    Mr. Colangelo. It is the business of the White House. Those 
are Presidential records.
    Mr. Lankford. I think we need to find a solution to that. 
That is one of those things that is hanging out. I understand 
the technology change and how things are shifting. There is 
nothing off-the-shelf on that, but it may be something that we 
need to address in the coming days.
    Obviously, this President, as is par for our culture as a 
whole, is very interested in being able to use social media 
sites, and I think it is very appropriate. The inappropriate 
side is we have a large volume of a lot of interaction with 
constituents and with people and with the White House that is 
not being tracked and is not being monitored.
    Mr. Colangelo. We continue to look into this technology. We 
are hoping that the industry evolves.
    Mr. Lankford. I would just suggest that is something we 
need to address in the coming days, to be able to establish 
whether it is a relationship with the social sites or some way 
to be able to establish that technology-wise.
    And with that I yield back.
    Chairman Issa. Thank you. And I thank the gentleman for his 
interest, and with your history of tracking, what, 21,000 young 
people every year going through your camps, I suspect that you 
know more about how to keep track of the hardest things to keep 
track of in the world.
    With that, I want to thank all of our witnesses. You have 
been very generous with your time. I appreciate your input; it 
will help us as we go forward. Clearly, some of you will be 
back again as we try to implement good policy after so many 
years of a law sustaining that.
    With that, we stand adjourned.
    [Whereupon, at 11:02 a.m., the committee was adjourned.]
    [The prepared statement of Hon. Paul A. Gosar and 
additional information submitted for the hearing record 
follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
